BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Briefin Opposition in 20-97 5, Freddie Eugene
Owens v. Bryan P. Stirling, Commissioner, South
Carolina Department of Corrections; and Lydell
Chestnut, Deputy Warden of Broad River Correctional
Institution Secure Facility, was sent via Three Day
Service to the U.S. Supreme Court, and via Three-Day
and e-mail service to the following parties listed below,
this 22nd day of January, 2021:
Michael F. Williams
Kirkland & Ellis LLP
1301 Pennsylvania Ave NW
Washington, DC 20004
(202) 389-5000
mwilliams@kirkland.com
Robert Lee
Elizabeth Peiffer
Virginia Capital Representation Resource Center
2421 Ivy Road, Suite 301
Charlottesville, VA 22903
roblee@vcrrc.org
epeiffer@vcrrc.org

Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Melody Jane Brown
Counsel of Record
Senior Assistant Deputy Attorney General
Alan Wilson
Attorney General of South Carolina
Donald John Zelenka
Deputy Attorney General
J. Anthony Mabry
Senior Assistant Attorney General
Office of the Attorney General of South Carolina
Post Office Box 11549
Columbia, SC 29211
(803) 734-3970
mbrown@scag.gov

Counsel for Respondents

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 22, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

'

[seal]
JOHN D. GALLAGHER
Notc1ry Public, State of Ohio
My Commission Expires
Fe~rUNV 14, 2023

